Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  NIH GRANTS MANAGEMENT:
      LATE CLOSEOUTS




                    Inspector General

                      May 2004
                    OEI-01-03-00021
               Office of Inspector General

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-ter m management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
�       A B S T R A C T 





                                         Grants management is a priority area for both the Secretary of
                                         Health and Human Services and the Office of Inspector General.
                                         In fiscal year 2002, the National Institutes of Health (NIH)
                                         awarded $19 billion to support 49,000 extramural grants to
                                         researchers affiliated with more than 2,800 universities,
                                         hospitals, and other research facilities. When a grant is
                                         terminated, Federal regulations require the grantee to submit,
                                         within 90 days, a final financial status report, scientific progress
                                         report, and invention statement. This grant closeout process is
                                         critical because it is the final point of accountability for the
                                         grantee. NIH staff must review and approve these documents in
                                         order to close out the grant. We have defined, in consultation
                                         with NIH, an on-time closeout as one that occurs within 150
                                         days after the grant has been terminated. In August 2002, NIH
                                         implemented a new computer system to monitor closeouts,
                                         referred to as the NIH closeout module.
                                         Based on our analysis of data in the NIH closeout module, we
                                         found that 88 percent (8,941) of all grants in the module were
                                         closed out late. The primary cause of late closeouts is grantees
                                         submitting closeout documents late. Tracking down these late
                                         closeout documents requires significant time and effort for NIH
                                         staff. NIH experiences several challenges in taking corrective
                                         actions against grantees for submitting late closeout documents.
                                         While the closeout module is a promising tool to help NIH
                                         monitor closeouts, it has some limitations. To address late
                                         closeouts we recommend that NIH (1) develop an automated
                                         reminder system to alert grantees about upcoming due dates for
                                         closeout documents, (2) facilitate the electronic submission of all
                                         closeout documents, (3) enhance the closeout module’s
                                         capabilities, and (4) address late closeouts more systematically
                                         by focusing on grantee institutions. NIH concurred with our
                                         recommendations.




O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S               i
�       E X E C U T I V E                                           S U M M A R Y 



                              OBJECTIVE
                              To determine the extent to which the National Institutes of Health
                              closes out grants on time.


                              BACKGROUND
                              The National Institutes of Health (NIH) is the largest Federal funder
                              of health research and development. In fiscal year 2002, NIH
                              awarded $19 billion to support 49,000 extramural grants to
                              researchers affiliated with more than 2,800 universities, hospitals,
                              and other research facilities. Extramural grants fund scientists and
                              organizations outside the agency. NIH awards grants through 24
                              distinct institutes and centers (institutes) that are responsible for the
                              day-to-day management and oversight of their grants.
                              Grants management is a priority area for both the Secretary of
                              Health and Human Services and the Office of Inspector General.
                              Given that grant closeouts are the final point of accountability for the
                              grantee, their timeliness is an important aspect of grants
                              management at NIH. When a grant is terminated, Federal
                              regulations require the grantee to submit, within 90 days, a final
                              financial status report, scientific progress report, and invention
                              statement (45 CFR § 74.70-73). The financial status report confirms
                              the final accounting of grant funds. At this time, any unobligated
                              funds are released. The progress report documents the course and
                              results of the research. Finally, the invention statement confirms if
                              any inventions were developed under the grant.
                              We have defined an on-time closeout, in consultation with NIH, as one
                              that occurs within 150 days of the end of the project period. We have
                              allowed 60 calendar days for NIH staff to review and approve the
                              closeout documents submitted by grantees, in addition to the 90 days
                              allowed by Federal regulations for grantees to submit their closeout
                              documents.
                              In August 2002, NIH implemented a new computer system to monitor
                              closeouts, referred to as the NIH closeout module. The purpose of the
                              closeout module is to help NIH staff closeout grants on time and,
                              when necessary, follow up with grantees to obtain late documents.
                              This new module provides an opportunity to document late closeouts
                              and their causes. At the time of our review, the module was in use for
                              only about 8 months, and institutes used it to varying extents.

O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         ii
E    X      E      C       U      T   I     V      E           S     U      M      M      A      R      Y


                                          Therefore, we cannot make any conclusions about the entire
                                          population of closeouts based on that data. This limitation applies to
                                          all data analysis based on the closeout module.
                                          This inspection is primarily based on an analysis of all data in the
                                          NIH closeout module, a survey of grantee institutions, and interviews
                                          with NIH staff.
                                          This report is one of two that resulted from our inquiry. Our
                                          companion report, NIH Grants Management: Late Awards (OEI-01-
                                          03-00020), applies a similar methodology to determine the extent to
                                          which NIH awards noncompeting continuation grants on time.


                                          FINDINGS
                                          Eighty-eight percent of all grants in the NIH closeout module were
                                          closed out late . As of April 2003, the NIH closeout module contained
                                          10,122 grants, of which 8,941 were closed out late. This includes
                                          3,118 grants that were closed out after 150 days, and 5,823 grants
                                          that were still pending after 150 days passed. Fifty grantee
                                          institutions accounted for almost half of these late closeouts.
                                          Research project grants, which are one of 10 funding categories,
                                          accounted for 79 percent of these late closeouts. Late closeouts
                                          appeared to be common across all funding mechanisms, years, and
                                          institutes.
                                          Grantees submitting closeout documents late is the primary
                                          cause for late closeouts. Based on data in the closeout module,
                                          grantees submitted final financial status reports late for 49 percent of
                                          the grants. Grantees submitted final progress reports late for 37
                                          percent of the grants. And grantees submitted at least 31 percent of
                                          final invention statements late. NIH does not remind grantees about
                                          upcoming due dates for closeout documents as the due date
                                          approaches. However, NIH does remind grantees about their
                                          closeouts at the time they receive the final year of funding.
                                          Tracking down missing closeout documents requires significant
                                          time and effort for institute staff. As late closeouts accumulate,
                                          institute staff reported to us that they find it difficult to address the
                                          backlog. Closeouts that are several years old are especially difficult,
                                          because principal investigators (the scientists who lead the research)
                                          may have moved on to other institutions and records may not be
                                          readily available. In order to obtain closeout documents, staff must
                                          follow up, often multiple times, with grantees. To address this
    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         iii
E    X      E      C       U      T   I     V      E           S     U      M      M      A      R      Y


                                          workload, several institutes have hired staff and/or contractors that
                                          are dedicated solely to addressing closeouts.
                                          NIH experiences challe nges in taking corrective actions against
                                          grantees for submitting closeout documents late. Institute staff
                                          indicated that they rarely resort to withholding future funding from
                                          an institution due to late closeouts, because it is too severe a penalty
                                          and slows down future research. And in many cases, the option of
                                          withholding future funding is not possible, as the principal
                                          investigator is no longer conducting NIH research. Twelve percent of
                                          grantee institutions indicated that NIH had withheld future funding
                                          from their institution due to late submission of closeout documents.
                                          And yet, 85 percent of grantee institutions indicated on our survey
                                          that they had submitted at least one set of closeout documents late in
                                          the past 3 years.
                                          While the closeout module is promising, it has some limitations.
                                          The current closeout module does not automatically include all grants
                                          eligible for closeout. Institute staff manually enter grants ready for
                                          closeout into the module; therefore, completeness is dependent on the
                                          staff updating the system. (Manual entry is necessary in order to
                                          verify the grant is ready for closeout.) Even for those institutes that
                                          have entered information, it is uncertain how diligent they are at
                                          keeping the information up to date. Many records contain missing
                                          information, which raises questions about whether the information
                                          was not submitted by the grantee or whether the institute failed to
                                          enter the information in the module.


                                          RECOMMENDATIONS
                                          NIH is taking several important steps toward addressing late
                                          closeouts, especially in developing the closeout module and planning
                                          to manage the closeout function from a central office. We encourage
                                          NIH to continue these efforts. We also recommend NIH:
                                                 o	 Develop an automated reminder system for grantees to alert
                                                    them of upcoming closeouts
                                                 o	 Facilitate the electronic submission of all closeout
                                                    documents
                                                 o	 Enhance the closeout module’s capabilities by ensuring that
                                                    all the information is entered into the module


    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         iv
E    X      E      C       U      T   I     V      E           S     U      M      M      A      R      Y


                                                 o	 Address late closeouts more systematically by focusing on
                                                    grantee institutions
                                          Agency Comments
                                          NIH reveiwed a draft of this report and concurred with our
                                          recommendations. In its comments, NIH indicated additional steps that
                                          it is planning to address these issues.




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S   v
�   T A B L E               O F                C O N T E N T S 




         A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii



         I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                       Eighty-eight percent of grants were closed out late . . . . . . . . . . . . . . . . . 7


                       Grantees submit late closeout documents . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                       Tracking down missing closeout documents. . . . . . . . . . . . . . . . . . . . . . . . 13


                       NIH experiences challenges in taking actions. . . . . . . . . . . . . . . . . . . . . . 14


                       Limitations of the closeout module . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16




         A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

                       Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


                       Confidence intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


                       Late closeouts by NIH institute . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


                       Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

�       I N T R O D U C T I O N 



                              OBJECTIVE
                              To determine the extent to which the National Institutes of Health
                              closes out grants on time.


                              BACKGROUND
                              The National Institutes of Health (NIH) is the largest Federal funder
                              of health research and development. NIH grants support basic and
                              clinical research, research centers, scientific training and fellowships,
                              and construction projects.
                              Recent increases in appropriations have allowed NIH to significantly
                              increase its grant-making capacity over the past 5 years. In fiscal
                              year (FY) 2003, NIH received $27 billion in total funding, compared to
                              $13.6 billion in FY 1998. The President’s proposed budget for FY
                              2004 requests $28 billion for NIH.
                              About 80 to 85 percent of NIH’s budget supports extramural grants.
                              Extramural grants fund scientists and organizations outside the agency.
                              In FY 2002, NIH’s total budget was $23.2 billion, of which NIH awarded
                              $19 billion in extramural grants. NIH awarded $16.8 billion to support
                              43,520 extramural research grants; the remaining $2.2 billion went to
                              support 6,196 other extramural grants, such as training and fellowship
                              grants. Combined, these funds supported about 49,700 extramural
                              grants to researchers affiliated with more than 2,800 universities,
                              hospitals, and other research facilities.
                              Grants Administration
                              Grants management and oversight are critical to ensure that Federal
                              funds are used properly. Grants management is a priority area for
                              both the Secretary of Health and Human Services and the Office of
                              Inspector General, and is among the top management challenges
                              identified by the Office of Inspector General for FY 2003.1 As the
                              largest funder of health research, NIH must have appropriate policies
                              and procedures in place to effectively and efficiently manage its
                              grants. The recent increases in NIH funding make it particularly
                              important to ensure that NIH has the proper infrastructure to handle
                              its increased grant workload.
                              The general requirements for grants management at NIH are set
                              forth by the Office of Management and Budget and codified in
                              regulation by the Department of Health and Human Services. 2 These


O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         1
I   N      T      R      O        D   U      C     T      I    O      N


                                          regulations establish requirements for the financial and
                                          administrative management of each award.
                                          Additional requirements are provided in the NIH Guide for Grants
                                          and Contracts, the NIH Grants Policy Statement, and the NIH
                                          Manual. The NIH Guide for Grants and Contracts is the official
                                          publication of NIH policies, procedures, and availability of funds. The
                                          NIH Grants Policy Statement provides a general overview of the
                                          grant application and review process, including terms and conditions
                                          for NIH grant awards. (NIH can establish other terms for particular
                                          institutions.) It emphasizes the importance of good grants
                                          management by stating, “NIH, as a Federal grantor agency, is
                                          responsible to Congress and the U.S. taxpayer for carrying out its
                                          mission in a manner that not only facilitates research but also does so
                                          cost effectively and in compliance with applicable rules and
                                          regulations.”3 The NIH Manual contains NIH policies regarding
                                          internal operations, including requirements for the awarding and
                                          oversight of extramural grants.
                                          NIH’s Office of Extramural Research is central to the development
                                          and maintenance of agency policies regarding extramural grants. It
                                          also develops program guidelines and information systems related to
                                          extramural research grants administration.
                                          NIH awards grants through 24 distinct institutes and centers
                                          (hereafter referred to as institutes) that are responsible for the day-to-
                                          day management and oversight of their grants. 4 Each institute has
                                          its own grants management office to handle administrative functions
                                          and to conduct ongoing monitoring of its grants. Grants management
                                          specialists in these offices are primarily responsible for reviewing
                                          applications for administrative content and compliance with key laws
                                          and regulations, reviewing all correspondence and reports from
                                          grantees, and providing technical assistance to grantees as needed
                                          throughout the grant process. A chief grants management officer
                                          oversees the grant specialists. Each institute also has its own
                                          program office. Program officers establish scientific program goals
                                          and objectives, which serve as a guide for funding decisions, and
                                          monitor scientific issues that arise throughout the course of the grant.
                                          Typically, NIH awards grants with project periods that span several
                                          years. The project period is the total time for which NIH agrees to
                                          support the project. NIH divides a multi-year project period into
                                          budget periods, usually 12-month increments. The budget period may

    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         2
I   N      T      R      O        D   U      C     T      I    O      N


                                          start at any point during the year. Grants management staff assign
                                          project periods and budget periods for each grant.
                                          Grant Closeouts
                                          Grant closeouts are the final point of accountability for the grantee.
                                          Failure to close out grants can have negative consequences for NIH as
                                          well as the grantees. For NIH staff, the consequence of late closeouts
                                          is that they need to spend significant time and effort following up
                                          with grantees to obtain late closeout documents. As for the grantees,
                                          the consequence of late closeouts is that future funding could be in
                                          jeopardy if NIH chooses to take enforcement actions.

                                          The closeout process occurs when the grant project period ends or
                                          when a grant transfers to another institution. At such time, Federal
                                          regulations require grantees to submit a closeout packet that consists
                                          of a final financial status report, scientific progress report, and
                                          invention statement. The financial status report confirms the final
                                          accounting of grant funds. At this time, any unobligated funds are
                                          released. The progress report documents the course and results of the
                                          research. Finally, the invention statement confirms if any inventions
                                          were developed under the grant.
                                          Federal regulations require grantees to submit a closeout packet no
                                          later than 90 calendar days following the termination of a grant. 5
                                          After 150 days, the NIH Manual states that sanctions may be
                                          imposed. 6
                                          The principal investigator, the scientist who is responsible for the
                                          direction and conduct of the research, and the grantee institution, the
                                          organization where the principal investigator is affiliated, are both
                                          responsible for submitting closeout documents. Typically, the
                                          principal investigator completes and submits the progress report and
                                          the invention statement. The grantee institution’s accounting
                                          department typically submits the financial status report.
                                          Once the institute receives the closeout documents, the appropriate
                                          institute staff review and approve the documents. The program
                                          officer is responsible for reviewing and approving the final scientific
                                          progress report and the grants management specialist ensures that
                                          all documents are complete.
                                          We have defined, in consultation with NIH, an on-time closeout as one
                                          that occurs within 150 days of the end of the project period. We have
                                          allowed 60 calendar days for NIH staff to review and approve the

    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S           3
I   N      T      R      O        D   U      C     T      I    O      N


                                          documents submitted by the grantees, in addition to the 90 days
                                          allowed by Federal regulations for grantees to submit their closeout
                                          documents.
                                          Prior Work
                                          Prior work by the Office of Inspector General (OIG) and others has
                                          found late closeouts to be a problem for NIH. The OIG reported in its
                                          Independent Audit Report for FY 2002 that NIH had about 15,283
                                          grants that were eligible for closeout but had not been closed as of
                                          September 30, 2002.7 A 1998 General Accounting Office report found
                                          that 85 percent (628 of 736) of grants at one institute were delinquent
                                          in providing the complete closeout packages. 8 Data from the National
                                          Cancer Institute, which has its own system to monitor closeouts, show
                                          that in FY 2000 and FY 2001 nearly 100 percent of grantees did not
                                          submit required documentation for closeouts within 90 days.9

                                          NIH Closeout Module
                                          In August 2002, NIH implemented a new computer program to
                                          monitor closeouts, referred to as the NIH closeout module. The
                                          purpose of the closeout module is to help NIH staff closeout grants on
                                          time and, when necessary, follow up with grantees to obtain late
                                          documents. This new module provides an opportunity to document
                                          late closeouts and their causes. The module pulls information from
                                          the Information for Management, Planning, Analysis and
                                          Coordination (IMPAC II) database and, based on this information,
                                          institutes can enter grants into the module that are ready for
                                          closeout. Once a grant is in the module, the institute staff can readily
                                          determine which closeout documents are missing and automatically
                                          generate emails to the grantee institution requesting the missing
                                          information.


                                          METHODOLOGY
                                          We based our analysis of late closeouts on five sources of data. For a
                                          detailed description of our methodology and confidence intervals, see
                                          Appendices A and B.
                                          First, we analyzed all 10,130 grants in NIH’s closeout module as of
                                          April 2003. The closeout module is a computer system implemented
                                          in August 2002 that allows the institutes to monitor grants that are
                                          ready for closeout. We eliminated 8 grants from our analysis because
                                          of missing information or apparent data entry errors. The revised
                                          dataset had a total of 10,122 records.

    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S          4
I   N      T      R      O        D   U      C      T I        O      N


                                          Second, we obtained computer printouts from the closeout module for
                                          a stratified sample of 300 grants that were closed out late (at least
                                          150 days after the project end date) or were still open at least 150
                                          days after the project end date. We limited our population to three of
                                          the largest institutes: the National Heart, Lung, and Blood Institute,
                                          the National Institute of Allergy and Infectious Diseases, and the
                                          National Institute of General Medical Sciences. We excluded the
                                          largest institute, the National Cancer Institute, because it already
                                          has an active monitoring system in place to identify late closeouts and
                                          their causes. We stratified our sample by institute. We randomly
                                          selected 100 late closeouts from the National Heart, Lung, and Blood
                                          Institute (N=522), the National Institute of Allergy and Infectious
                                          Diseases (N=784), and the National Institute of General Medical
                                          Sciences (N=254).
                                          Third, we requested the specific operating procedures related to
                                          closeouts for all 24 institutes with grant-making authority.
                                          Fourth, we selected a simple random sample of 135 grantee
                                          institutions from the 375 locations that received 10 or more research
                                          grants from NIH in FY 2002. We received 111 replies to our survey,
                                          for a response rate of 82 percent.
                                          Finally, we interviewed grants management staff at the National
                                          Heart, Lung, and Blood Institute; the National Institute of Allergy
                                          and Infectious Diseases; and the National Institute of General
                                          Medical Sciences, as well as staff in the Office of Extramural
                                          Research.
                                          Data Limitations
                                          In order for a grant to be captured in the closeout module, institute
                                          staff must manually enter the grant into the module. Because the
                                          module depends on someone to enter the grants, it is unlikely that the
                                          module contains all grants ready for closeout. This is further
                                          complicated by the fact that at the time of our review, the module was
                                          in use for only about 8 months, and institutes used it to varying
                                          extents. For example, some institutes have entered closeouts from
                                          the past several years, whereas other institutes have only entered the
                                          most recent closeouts. Therefore, we cannot make any conclusions
                                          about the entire population of closeouts based on that data. This
                                          limitation applies to all data analysis based on the closeout module.




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         5
I   N      T      R      O        D   U      C     T      I    O      N


                                          Standards

                                          We conducted this inspection in accordance with the Quality 

                                          Standards for Inspections issued by the President’s Council on 

                                          Integrity and Efficiency.



                                          A COMPANION REPORT
                                          This report is one of two that resulted from our inquiry. Our companion
                                          report, NIH Grants Management: Late Awards (OEI-01-03-00020),
                                          applies a similar methodology to determine the extent to which NIH
                                          awards noncompeting continuation (type 5) grants on time. A late
                                          noncompeting continuation award results in a situation in which NIH
                                          has not issued funding for the next budget period until after the end of
                                          the previous budget. This causes a gap in funding.




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S      6
�           F I N D I N G S 


                                                                As of April 2003, the NIH closeout
Eighty-eight percent of all the awards in the NIH               module contained 10,122 closeouts,
                 closeout module were closed out late.          of which 8,941 were closed out late.
                                                                This includes 3,118 grants that
                           were closed out after 150 days and 5,823 grants that were still pending,
                           but 150 days had already passed.

                                  The late closeouts in the module were at least 2 years late. Three-
                                  quarters of the late closeouts were at least 1 year late. Almost half were
                                  3 years or more late. (See Table 1.) These are conservative estimates
                                  because 65 percent of the late closeouts remain open, thus, they become
                                  even later over time.




                                                       Table 1. Closeouts By Extent of Lateness

                                                                                                    Number of    Percent of All
                                                            Extent of Lateness                         Late          Late
                                                                                                    Closeouts     Closeouts*

                                                         151 days to < 1 year                            2,374            27%

                                                         1 year to < 2 years                             1,087            12%

                                                         2 years to < 3 years                            1,483            17%

                                                         3 years to < 4 years                            1,421            16%

                                                         4 years to < 5 years                            1,183            13%

                                                         5 years and above                               1,393            16%

                                                          Overall Total                                  8,941          100%

                                                      * Numbers do not equal a 100% due to rounding.

                                                      Source: OIG analysis of data from NIH's Closeout Module, 2003




    O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                                 7
F    I    N       D      I        N    G    S


                                           Three percent of the grantee institutions in the module accounted for
                                           45 percent of all the late closeouts in the module. There were 1,721
                                           grantee institutions in the module, yet 50 of these grantee institutions
                                           represent 4,018 (45 percent) of late closeouts in the module. These 50
                                           grantee institutions also represent 45 percent of all grants in the
                                           closeout module. The proportion of late closeouts for those 50 grantee
                                           institutions ranged from 70 to 96 percent. Thirteen of those 50
                                           grantee institutions had at least 100 late closeouts. Given that some
                                           grantee institutions are very large and receive thousands of grants
                                           from NIH each year, it is not surprising that a small number of large
                                           grantees accounted for almost half of the late closeouts. These large
                                           grantees had the largest absolute number of late closeouts, but this
                                           does not necessarily indicate that they had a greater proportion of
                                           late closeouts than other grantees.
                                           Late closeouts were common across funding mechanisms in the
                                           module. The closeout module included 73 types of funding
                                           mechanisms, rolled up into 10 categories ranging from research
                                           project grants (R) to cooperative agreements (U). The proportion of
                                           late closeouts ranged from 46 percent to 100 percent across the 10
                                           categories of funding mechanisms. Research project grants (R), which

                                  Table 2. Late Closeouts by Grant Mechanism

                                                                                                        Number of       Number of Late         Percent of Late
                                           Category of Grant Mechanisms                              Closeouts in the   Closeouts in the       Closeouts in the
                                                                                                         Module             Module                 Module

                                      Research Projects (R)                                                     7,974               7,242                   91%

                                      Research Career (K)                                                         701                658                    94%

                                      Fellowship (F)                                                              310                245                    79%

                                      Research Programs and Centers (P)                                           274                239                    87%

                                      Research-Related Programs (S)                                               447                205                    46%

                                      Cooperative Agreements (U)                                                  165                155                    94%

                                      Training Programs (T)                                                       103                  96                   93%

                                      Resource (G)                                                                 85                  58                   68%

                                      Research Construction (C)                                                    62                  42                   68%

                                      General Clinical Research Center (M)                                          1                      1              100%

                                      Overall Total                                                            10,122               8,941                   88%

                                  Source: OIG analysis of data from NIH's Closeout Module, 2003


    O E I - 01 - 03 - 0 0 0 2 1            N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                                                    8
F    I    N       D      I        N   G    S


                                          are the most common type of grant mechanism used by NIH,
                                          accounted for 79 percent of all grants in the closeout module. Of those
                                          research grants, 91 percent were closed out late. (See Table 2 on the
                                          previous page.)
                                          Within the module, late closeouts appeared to be a problem across all
                                          years. NIH began using the closeout module starting in August 2002.
                                          At that time, some institutes entered the most current grants into the
                                          module, while others entered grants that had been pending closeout
                                          for several years, as far back as 1994. Considering these varying
                                          approaches to entering data into the closeout module, and recognizing
                                          that some institutes have entered all closeouts and others have
                                          entered more recent closeouts, it is difficult to look at the trend of
                                          closeouts across the years. Still, for the more recent years of 1999 to
                                          2002, over 1,000 grants were closed out late per year. In 2002, the
                                          year in which the closeout module was launched, 2,803 grants were
                                          closed out late. (See Table 3.)



                                          Table 3. Late Closeouts by Project Period End Date

                                           Calendar Year of the                                                                         Percent of Late
                                                                Number of Closeouts                                 Number of Late
                                            Project Period End                                                                          Closeouts in the
                                                                    in Module                                     Closeouts in Module
                                                   Date                                                                                     Module

                                               1994                                                           8                     8                100%

                                               1995                                                         217                   216                100%

                                               1996                                                         401                   396                 99%

                                               1997                                                         454                   439                 97%

                                               1998                                                         690                   670                 97%

                                               1999                                                   1,352                     1,318                 98%

                                               2000                                                   1,711                     1,528                 89%

                                                                                                      1,756                     1,563                 89%
                                               2001
                                                                                                      3,425                     2,803                 82%
                                               2002

                                                                                                            103                     0                  0%
                                               2003
                                                                                                              5                   n/a                  n/a
                                               No year provided
                                               Overall Total                                      10,122                       8,941                 88%

                                          Source:OIG analysis of data from NIH's Closeout Module, 2003




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                                                    9
F    I    N       D      I        N   G    S


                                          Twenty-three institutes have used the closeout module to varying
                                          degrees. Considering the varying approaches to entering data into
                                          the closeout module, it is difficult to look at the trend of closeouts
                                          across the institutes. Some institutes have entered as few as 2 grants
                                          (National Institute on Drug Abuse) while others have entered over
                                          2,000 (National Institute of Neurological Disorders and Stroke). 10
                                          Fourteen institutes have at least 100 late closeouts in the module.
                                          (See Appendix C.) Of the institutes that have the most closeouts in
                                          the module (500 or more grants in the module), the proportion of late
                                          closeouts ranged from 55 to 100 percent. (See Table 4.) Although it
                                          has provided training on the use of the closeout module to institute
                                          staff, at the time of our review, NIH did not require institutes to use
                                          the module.


           Table 4. Late Closeouts for the Institutes with the Most Grants in the Closeout Module

                                                                                                                        Number of Late       Percent of Late
                                                                                                  Number of Closeouts
                                          Institute or Center                                                           Closeouts in the     Closeouts in the
                                                                                                     in the Module
                                                                                                                            Module               Module

              Nat. Inst. of Neurological Disorders & Stroke                                                     2,016                1,887                94%

              Nat. Cancer Institute                                                                             1,228                1,108                90%

              Nat. Inst. of Child Health & Human Development                                                     964                   953                99%

              Nat. Inst. on Deafness and other Communication Disorders                                          1,008                  922                92%

              Nat Inst. Of Allergy & Infectious Diseases                                                        1,060                  917                87%

              Nat. Inst. of Dental & Craniofacial Research                                                       593                   584                99%

              Nat. Heart, Lung, & Blood Institute                                                                621                   566                91%

              Nat. Center for Research Resources                                                                1,005                  557                55%

              Nat. Inst. of Diabetes & Digestive & Kidney Diseases                                               541                   540               100%

           Source: OIG analysis of data from NIH's Closeout Module, 2003




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                                                10
F    I    N       D      I        N   G    S


                                                                                                                    Federal regulations require
Grantees submitting closeout documents late is                                                                      grantees to submit all closeout
                             the primary cause for late closeouts.	                                                 documents no later than 90
                                                                                                                    calendar days following the
                                                                                                                    termination of a grant.11

                                          Financial status reports were submitted late most often. Based on data
                                          from the closeout module, grantees submitted final financial status
                                          reports late for 49 percent of grants that were closed out late. On
                                          average, financial status reports were at least 191 days late.
                                          Grantees submitted final progress reports late in 37 percent of grants
                                          closed out late, averaging at least 467 days late. The closeout module
                                          does not have a date for final invention reports, as the module was not
                                          designed to capture it. Instead, the receipt is indicated by a “Yes” or
                                          “No.” Therefore, it is difficult to accurately report the extent of late
                                          invention statements. However, grantees submitted at least 31
                                          percent of final invention statements late of grants closed out late.
                                          This is assuming that all grants with a “Yes” were received on time,
                                          which is unlikely. (See Table 5.) Grantees submitted at least 2 of the
                                          documents late in 35 percent of the grants closed out late, and 5
                                          percent of grantees submitted all three documents late.



                                                          Table 5. Percent of Late Closeout Documents

                                                                                                                               No
                                                                                                                                          Percent on
                                                                        Document                            Percent Late Information in
                                                                                                                                             Time
                                                                                                                            Module*

                                                              Financial Status Report                               49%            26%           26%

                                                              Progress Report                                       37%            54%            9%

                                                              Invention Statement                                   31%            31%           31%

                                                          Source: OIG analysis of data from NIH's Closeout Module, 2003

                                                          *No information could reflect that the institute has not received the information
                                                          from the grantee or that the system has not been updated to reflect the receipt.




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                                              11
F    I    N       D      I        N   G       S


                                          Grantees experience several challenges in submitting closeout
                                          documents on time. Eighty-five percent of grantee institutions
                                          indicated that they had submitted at least one closeout package late
                                          in the past 3 years. Several reasons may account for this. First,
                                          grantee institutions commented on our survey that 90 days is not
                                          always enough time to reconcile accounts and prepare the financial
                                          status report, especially when subgrantees are involved. Second, they
                                          also acknowledged that they have difficulty obtaining the necessary
                                          information in a timely manner from principal investigators at their
                                          institutions, who are often busy with other grants and may not view
                                          the final progress report as a high priority. Third, grantee
                                          institutions commented that limited staff resources and other
                                          competing priorities hinder their ability to stay on top of closeouts,
                                          especially as late closeouts accumulate. And finally, grantees must
                                          submit their invention statements and progress reports on paper
                                          through regular mail. Only financial status reports can be submitted
                                          electronically to NIH. Paper submission may contribute to late
                                          closeouts.
                                          NIH lacks a reminder system to alert grantees about upcoming due
                                          dates for closeouts. As the end of the project period nears, NIH does
                                          not routinely send a reminder or notice to the grantee about the
                                          upcoming due date for closeout documents. Instead, NIH informs the
                                          grantee in the notice-of-grant award for the last budget period, which
                                          is typically a year before the closeout documents are due. Grantee
                                          institutions that responded to our survey commented that the lack of
                                          reminders immediately prior to due dates contributed to late closeout
                                          documents.
                                          When grantees submit closeout documents on time, NIH does close out
                                          the grant in a timely manner. Based on data from the closeout module,
                                          we found that when all closeout documents were submitted within 90
                                          calendar days, NIH reviewed and approved the documents within 60
                                          days 96 percent of the time. Seventeen of the 24 institutes with
                                                                                                        *
                                          grant-making authority have procedures to manage closeouts.




                                          *
                                              Since the time of our review, NIH has centralized its grants closeout function, such that
                                              individual institute’s procedures are being replaced by standard operating procedures.



    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                             12
F    I    N       D      I        N   G    S


                                                                     As late closeouts accumulate,
         Tracking down missing closeout documents
                                                                     institute staff commented that
                requires significant time and effort by the
                                                                     they find it difficult to address
                                                     institutes.     the backlog given other
                           competing priorities, especially issuing new grants. They also raised
                           concerns about the amount of resources they have to manage the
                           closeout process and follow-up with grantees regarding late closeout
                           documents. Obtaining missing closeout documents is especially
                           difficult for grants that are several years old, because principal
                           investigators may have moved on to other institutions and records
                           may not be readily available.
                                          To address this workload, the three institutes we reviewed in-depth
                                          (the National Heart, Lung, and Blood Institute; the National Institute
                                          of Allergy and Infectious Diseases; and the National Institute of
                                          General Medical Sciences) hired contractors or staff, who are
                                          dedicated solely to processing closeout documents from grantees. The
                                          chief grants management officers at these three institutes mentioned
                                          dedicated staff as key for processing closeouts, especially the backlog
                                          of late closeouts.
                                          In order to obtain missing documents, institutes must follow up, often
                                          multiple times, with grantees. The NIH Manual recommends
                                          institutes follow-up with grantees if the closeout documents have not
                                          been submitted after 90, 120, and 150 calendar days. 12
                                          The closeout module allows institutes to record up to two follow up
                                          correspondences with grantees. Because we could not readily obtain
                                          the correspondence data for all grants in the closeout module, we
                                          reviewed printouts that contained correspondence data for a sample of
                                          300 out of 1,560 grants that were closed out late in FY 2002 at the
                                          National Heart, Lung, and Blood Institute, the National Institute of
                                          Allergy and Infectious Diseases, and the National Institute of General
                                          Medical Sciences. We found that 80 percent of these grants had at
                                          least 1 recorded correspondence in the closeout module, and 39
                                          percent had a second recorded correspondence. It is possible that
                                          institutes conducted additional follow-up that was not recorded in the
                                          closeout module.




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S      13
F    I    N       D      I        N   G    S




         NIH experiences several challenges in taking                     According to the NIH Manual,
                                                                          institutes may impose one of
                       corrective actions against grantees for
                                                                          several sanctions if the
                         submitting closeout documents late.
                                                                          grantee has not submitted its
                               closeout documents within 150 days. If the principal investigator
                                                                      13

                               has other pending awards with the same institute, the institute may
                               withhold future funding from the grantee institution for that
                               particular principal investigator until the closeout documents are
                               submitted. If the principal investigator has other pending awards at
                               other institutes, the institute with the late closeout could request that
                               the other institutes also withhold future funding from the principal
                               investigator’s institution. However, it is up to each individual
                               institute to determine whether or not to withhold future funding.
                                          Because the closeout module does not capture such information, we
                                          were unable to quantify how often institutes withheld future funding.
                                          However, in interviews, institute staff indicated that they rarely
                                          resort to withholding future funding from a principal investigator due
                                          to late closeouts, because it is viewed as too severe a penalty and
                                          slows down future research. Withholding funds often means
                                          coordinating with other institutes where the principal investigator
                                          and grantee institution has pending awards, which can be difficult.
                                          And in many cases, the option of withholding future funds is not
                                          possible, as the principal investigator is no longer conducting any
                                          NIH-funded research.
                                          Even though we are unable to quantify definitively the number of
                                          times NIH withheld future funding, 12 percent of grantee institutions
                                          reported to us that NIH had withheld future funding from their
                                          institutions due to late submission of closeout documents. However,
                                          86 percent of grantee institutions indicated that they had submitted
                                          at least 1 set of closeout documents late in the past 3 years.
                                          Besides withholding future funding, NIH can impose special award
                                          conditions on the grantees, such as additional monitoring, for grantee
                                          institutions with a history of poor performance. 14 However, NIH’s
                                          policy makes no explicit mention of imposing special conditions. 15
                                          Instead, it discusses the possibility of taking corrective actions when
                                          there is a pattern of late closeouts, but it provides few specifics about
                                          what type of corrective actions are appropriate and when they should
                                          be taken.

    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S        14
 F    I    N       D      I        N   G    S


                                                                                The closeout module is NIH’s
While the closeout module is promising, it has                                  main effort to help reduce late
                                                      some limitations.         closeouts. While the closeout
                                                                                module is designed to facilitate
                                           the closeout process, current limitations hinder its ability to do so.
                                           Institute staff manually enter grants ready for closeout into the
                                           module; therefore, completeness is dependent on the staff updating
                                           the system. (Manual entry is necessary in order to verify the grant is
                                           ready for closeout.) Based on the number of records entered in the
                                           module, some institutes are clearly using the module more than
                                           others. For example, the National Institute of Neurological Disorders
                                           and Stroke has over 2,000 grants entered in the module while the
                                           National Institute on Drug Abuse only has 2. As we have already
                                           indicated, at the time of our review, NIH did not require institutes to
                                           use the module.
                                           Even for those institutes that have entered information, it is
                                           uncertain how diligent they are at keeping the information up to date.
                                           Many of the records contain missing information, which raises
                                           questions about whether the information was not submitted to the
                                           institute or whether the institute failed to enter it. Data on the
                                           progress report are the most commonly missing information (54
                                           percent were blank), followed by data on the invention statement (31
                                           percent were blank), and the financial status report (26 percent were
                                           blank). (See Table 5 on page 11.)
                                           In addition, as we have already pointed out, the closeout module
                                           records only two dates of correspondence between the institute and
                                           the grantee and does not record any corrective or enforcement actions
                                           taken by the institutes.




     O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S          15
        R E C O M M E N D A T I O N S 



                              In NIH’s closeout module we found 8,941 late closeouts. This
                              presents a vulnerability to NIH, as closeouts are the final point of
                              accountability for the grantee. NIH staff spend significant time and
                              effort following up with grantees to obtain late closeout documents.
                              As for the grantees, late closeouts can jeopardize their future funding.
                              NIH is taking important steps toward addressing this problem,
                              especially by implementing the closeout module. In addition, NIH
                              plans to manage the closeout process from a new central office; this
                              approach will help to bring additional attention to closeouts as well as
                              create efficiencies. NIH also plans to address closeouts more
                              systematically by following up with grantee institutions that have a
                              pattern of late closeouts. NIH will continue to conduct outreach to
                              grantees about the importance of on-time closeouts and plans to
                              require institutes to use the closeout module. Finally, NIH has a
                              workgroup as part of its Compliance, Education and Review Team,
                              that is examining ways to improve the closeout process. We
                              encourage NIH to continue these efforts.
                              We also offer four recommendations to NIH on how to further address
                              late closeouts.


    Develop an automated reminder system for
                                                                     Given that grantees regularly
grantees to alert them of upcoming closeouts.
                                                                     fail to submit closeout
                                                                     documents on time, an
                              automatic reminder system could be a simple yet beneficial way to
                              foster grantee compliance. NIH has already developed an automatic
                              email notification system to remind principal investigators about
                              upcoming due dates for noncompeting applications, which NIH
                              requires at the end of each budget period to renew funding. NIH could
                              use a similar system to remind grantees about upcoming due dates for
                              closeout documents. This reminder should be sent to both the
                              principal investigator and the appropriate business official at the
                              grantee institution.


                                                                    NIH is moving towards
                Facilitate the electronic submission of all         electronic grants
                                         closeout documents.	       management to facilitate
                                                                    other parts of the grant-
                              making process. We suggest that NIH also include the closeout


O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S       16
R    E      C       O      M      M   E    N      D     A      T      I    O      N     S


                                      process by developing a system by which grantees can submit all
                                      closeout documents electronically to NIH. Currently only the
                                      financial status reports can be submitted electronically. The
                                      electronic submission of closeout documents should help to facilitate
                                      on-time closeouts.
                                                                                 NIH has taken an important
            Enhance the closeout module’s capabilities.                          step toward addressing late
                                                                                 closeouts by implementing
                                                                                 the closeout module. We
                                      recognize that NIH continues to make improvements to the module
                                      and we believe that this module has the potential to help NIH address
                                      late closeouts. However, as we have pointed out, not all institutes are
                                      using it to the fullest extent possible. We recognize that at the time
                                      we conducted our review the module was less than a year old, and
                                      therefore institutes may not have been fully aware of how best to use
                                      it.
                                      It is important that NIH ensure that all the information in the
                                      module is up-to-date by requiring all closeouts to be entered into the
                                      system. We encourage NIH to proceed with its plans to require all
                                      institutes to use the module. In addition, to ensure the integrity of
                                      the data, NIH should conduct regular validity checks of the system.
                                      Not only should NIH ensure the information in the module is
                                      complete and up-to-date, but it should also improve the structure of
                                      the closeout module. First, NIH should capture the date of receipt of
                                      the final invention statement. Currently, this information is not
                                      recorded in the system. Second, we recommend that NIH capture
                                      additional dates of correspondence. The current version only allows
                                      institutes to record up to two dates of correspondence. Institute staff
                                      indicated that more follow-up is often necessary. Third, we
                                      recommend that NIH create a field to capture any type of corrective or
                                      enforcement action that has been taken. This will allow NIH to
                                      monitor these actions across all institutes and ensure consistency.
                                      Fourth, we recommend NIH improve the reporting functions of the
                                      closeout module so that NIH staff can more readily identify patterns
                                      of late closeouts for grantee institutions and/or principal
                                      investigators.
                                      Finally, we encourage NIH to proceed with its plans to make this
                                      module available for grantees to access on a read-only basis.



    O E I - 01 - 03 - 0 0 0 2 1       N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S          17
R    E      C       O      M      M   E    N      D     A      T I O N                  S


                                      Providing this closeout information will allow grantees to take a more
                                      active role in monitoring their own closeouts.


                                                                                  We found that 50 grantee
       Address late closeouts more systematically by                              institutions represent 45
                                      focusing on grantee institutions.           percent of the late closeouts
                                                                                  in the module. Efficiencies
                                       could be gained if NIH followed up with key administrators at these
                                       institutions, rather than having institute staff follow up on individual
                                       grants. NIH should routinely identify patterns of late closeouts by
                                       grantee institutions and principal investigators. We recognize NIH
                                       plans to move in this direction and we encourage NIH to do so.
                                       Ideally, the new central office managing closeouts could identify these
                                       patterns across all of NIH.
                                      Once NIH identifies either a principal investigator or a grantee
                                      institution with a pattern of late closeouts, it should take appropriate
                                      corrective actions to address the situation. In addition to withholding
                                      any future funding from individual principal investigators at
                                      particular grantee institutions, we suggest that NIH consider
                                      providing technical assistance to grantee institutions with a pattern
                                      of late closeouts. This could be accomplished through general
                                      outreach efforts or through targeted follow-up with individual
                                      grantees. This could involve a review of the grantee institutions’
                                      policies and procedures for processing closeouts internally and
                                      training for principal investigators and other key staff.
                                      NIH should also consider using its authority to impose special
                                      conditions on grantee institutions with poor performance, to address
                                      late closeouts. In order to do so, NIH should identify what special
                                      conditions are appropriate for grantee institutions with a pattern of
                                      late closeouts. 16


                                      Agency Comments
                                      NIH reviewed a draft of this report and concurred with our
                                      recommendations. In its comments, NIH indicated additional steps that
                                      it is planning to address these issues, such as requiring the inclusion of
                                      all grants expiring on or after October 1, 2004 in the closeout module
                                      and centralizing the grants closeout function. We appreciate NIH’s



    O E I - 01 - 03 - 0 0 0 2 1       N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         18
                              attention to these important issues. For the full text of the agency’s
                              comments, see Appendix D.




O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S          19

�       A P P E N D I X                                      ~            A 


                              Methodology


                              NIH Closeout Module Data Analysis
                              The National Institutes of Health (NIH) provided us with records of all
                              grants in the closeout module as of April 2003. The records supplied
                              from the module originated from the database management system
                              known as the Information for Management, Planning, Analysis, and
                              Coordination (IMPAC II). NIH uses IMPAC II for managing and
                              monitoring grants. NIH has used IMPAC II for managing and
                              monitoring grants for the past 10 years.
                              We received a dataset of 10,130 records. For each grant, the dataset
                              included the grant number, grantee institution name and identification
                              number, grant mechanism and type, total award amount, awarding
                              institute, budget end date, project end date, final financial status report
                              receipt date, final financial status acceptance date, final progress report
                              date, final invention statement receipt (yes/no), and grant closeout date.
                              We eliminated eight grants from our analysis because of missing
                              information or apparent data entry errors. The revised dataset had a
                              total of 10,122 records.
                              In consultation with NIH, we classified a closeout as late if the closeout
                              date was 150 days or more after the project end date. The grantee has
                              90 calendar days to submit the closeout documents (final financial
                              status report, final progress report, and final invention statement)
                              following the termination of the grant. In addition, we added 60
                              calendar days to allow NIH staff to review and approve the documents
                              submitted by the grantees.
                              We tallied the number of late closeouts overall, as well as by year, by
                              grantee institution, by institute, by grant mechanism, and by number of
                              months/years late. We performed our analyses using SAS® software
                              version 8.0, a statistical software package.
                              Data limitation. NIH’s closeout module allows the institutes to track
                              grants that are ready for closeout. In order for a grant to be captured in
                              the closeout module, institute staff must enter the grant in the module.
                              Because the module depends on someone to enter the grants, it is
                              unlikely that the module contains all grants ready for closeout. This is
                              further complicated by the fact that at the time of our review, the
                              module had been in use for only about 8 months, and institutes use it to
                              varying extents. For example, some institutes have entered closeouts

O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S         20
A    P      P      E       N      D   I      X     ~     A


                                          from the past several years, whereas other institutes have only entered
                                          the most recent closeouts. Therefore, we cannot make any conclusions
                                          about the entire population of closeouts based solely on that data. This
                                          limitation applies to all data analysis based on the closeout module.
                                          NIH Closeout Module Correspondence Analysis
                                          We obtained computer printouts from the closeout module for a
                                          stratified sample of 300 grants that were closed out late (at least 150
                                          days after the project end date) or were still open at least 150 days after
                                          the project end date. From these printouts, we obtained the dates of
                                          the correspondence from the institutes to the grantees to obtain missing
                                          closeout documents. We relied on these printouts because we could not
                                          readily obtain this information electronically for all grants in the
                                          closeout module.

                                          In order to concentrate on the most prominent funding sources, we
                                          limited our population to three of the largest institutes: National Heart,
                                          Lung, and Blood Institute, the National Institute of Allergy and
                                          Infectious Diseases, and the National Institute of General Medical
                                          Sciences. (For fiscal year (FY) 2002, these three institutes were in the
                                          top four in terms of number of extramural research grants and amount
                                          funding for extramural research grants.) We excluded the largest
                                          institute, the National Cancer Institute, because it already has an
                                          active monitoring system in place to identify late closeouts and their
                                          causes. We stratified our sample by institute. (See Table 6.)


                                           Table 6. Sample Design

                                                                                                            Population of   Sample of
                                                                       Strata for File Review                   Late           Late
                                                                                                             Closeouts      Closeouts

                                          National Heart, Lung, & Blood Institute                                    522           100

                                          National Institute of Allergy & Infectious Diseases                        784           100

                                          National Institute of General Medical Sciences                             254           100

                                          Total                                                                    1,560           300

                                          Source: OIG analysis, 2003




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                         21
A    P      P      E       N      D   I      X     ~     A


                                          For each of the 300 late closeouts, we recorded the follow-up the
                                          institutes had with the grantee to obtain the closeout documents. We
                                          noted the dates of any letters sent to the grantee and any comments
                                          added to the remarks section. We analyzed the data to determine what
                                          percent of late closeouts received one follow-up and what percent of late
                                          closeouts received a second follow-up.
                                          Institute Procedure Review
                                          We requested operating procedures related to closeouts from all
                                          24 institutes with grant-making authority. Seventeen of the
                                          24 institutes with grant-making authority provided us with materials;
                                          the other 7 (National Institute of Child Health and Human
                                          Development, National Center for Complementary and Alternative
                                          Medicine, National Institute of Biomedical Imaging and
                                          Bioengineering, National Eye Institute, National Institute on Aging,
                                          National Institute of Nursing Research, and National Center on
                                          Minority Health and Health Disparities) did not maintain operating
                                          procedures specific to closeouts at the time of our review. We included
                                          in our review any written procedures, instruction manuals, checklists,
                                          worksheets, timelines, flowcharts, and form letters sent to us by the
                                          institutes. We assessed the number of institutes that maintained
                                          guidelines related to (1) tracking closeouts, (2) following up with
                                          grantees, and (3) instructions on the closeout process.

                                          Survey of NIH Grantee Institutions
                                          We selected a simple random sample of 135 grantee institutions from the
                                          375 locations that received 10 or more research grants from NIH in FY
                                          2002. We restricted our sample to institutions with 10 or more research
                                          grants to ensure that they had a wide range of experiences with NIH, so
                                          that any problems they reported with closeouts would not reflect an
                                          anomaly. We drew our sample from a list of 2,532 institutions provided
                                          by NIH.

                                          We oversampled by an additional 18 locations in order to obtain our
                                          desired sample size. From 153 grantee institutions, we eliminated 2
                                          foreign institutions, 2 institutions with incomplete contact information,
                                          and 14 duplicates (where 2 or more divisions of a research institution
                                          were included in our sample, we kept only the first entry in order to avoid
                                          duplication.)
                                          The survey contained seven questions on late closeouts, which
                                          addressed the main factors that cause late closeouts, the extent to
                                          which late closeouts create problems, and recommendations for

    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S       22
A    P      P      E       N      D   I      X     ~     A


                                          improving the closeout process. We pretested our survey with grantee
                                          institutions.
                                          We addressed the survey to the business official identified by NIH. In
                                          cases where NIH had not identified a business official, we addressed
                                          the survey to a senior grants administrator. In both instances, we
                                          indicated in our cover letter that a senior grants administrator who is
                                          knowledgeable about NIH grants was to complete the survey.
                                          To ensure a high response rate, we first sent an introductory letter to
                                          each institution in our sample, explaining the significance of the
                                          survey. One week later, we mailed the survey. We followed up with a
                                          second survey for institutions that did not send back our survey within
                                          3 weeks.
                                          We received 111 responses to our survey, for a response rate of 82
                                          percent. Nonrespondent analysis found no significant difference
                                          between respondents and nonrespondents in terms of average number
                                          and funding of research awards. The estimates given in the report are
                                          within plus or minus 7 percentage points at the 95 percent confidence
                                          level (See Table 7 below and Table 8 on the following page.)



                                                       Table 7. Nonrespondent Analysis by Number of
                                                       Research Awards
                                                                                                            Average Number of Awards

                                                          Sample (n=135)                                                           108

                                                          Respondents (n=111)                                                      107

                                                          Nonrespondents (n=24)                                                    112

                                                          t=0.15                                        Degrees of freedom=133

                                                       Source: OIG survey of NIH grantees, 2003




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                                23
A    P      P      E       N      D   I      X     ~     A



                                           Table 8. Nonrespondent Analysis by Amount of
                                           Funding
                                                                                                 Average Amount of Funding

                                              Sample (n=135)                                                  $37,550,528.82

                                              Respondents (n=111)                                             $37,303,671.78

                                              Nonrespondents (n=24)                                           $38,692,242.60

                                               t=0.12                                        Degrees of freedom=133

                                          Source: OIG survey of NIH grantees, 2003



                                          Interviews of NIH officials
                                          We interviewed a program officer, a grants management specialist, and
                                          the chief grants management officer at the National Heart, Lung, and
                                          Blood Institute, the National Institute of Allergy and Infectious
                                          Diseases, and the National Institute of General Medical Sciences. We
                                          discussed the causes and effects of late closeouts, any systems that the
                                          institutes had in place to track and monitor closeouts, and any barriers
                                          to closing out grants on time. We also solicited their recommendations
                                          for improving the closeout process and the closeout module.
                                          We also spoke with staff at the Office of Extramural Research and with
                                          institute administrators involved in NIH-wide grants administration
                                          efforts, who described the initiatives that NIH has planned or
                                          underway to reduce the likelihood of closeouts. We discussed the
                                          causes and effects of late closeouts, and any barriers to closing out
                                          grants on time. We also solicited their recommendations for improving
                                          the closeout process.




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                      24
  �            A P P E N D I X                                      ~            B 


                                     Confidence Intervals for Key Findings
                                     Below, we provide the point estimate and 95 percent confidence interval
                                     for each of our key findings. The point estimates and confidence
                                     intervals for the findings vary based on the standard error for each
                                     individual finding.


                                                                                                       Sample     Point     Confidence
        Data Source                                        Key Findings
                                                                                                        Size    Estimate*    Interval
                                           Percent of grants with at least 1
 NIH closeout module                       recorded correspondence in the                               300       80%         +/- 5%
 correspondence analysis                   closeout module
                                           Percent of grants with at least 2
                                           recorded correspondence in the                               300       39%         +/- 6%
                                           closeout module
*Note: Point estimates are weighted.
Source: OIG analysis, 2003




       O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                               25
�             A P P E N D I X                                         ~            C 


                                       Late Closeouts for All Institutes in the NIH Closeout
                                       Module*
                                                                                                       Number of     Number of Late Percent of Late
                                    Institute/Center                                                Closeouts in the Closeouts in the Closeouts in the
                                                                                                        Module           Module           Module

National Institute of Neurological Disorders & Stroke                                                         2,016           1,887              94%
National Cancer Institute                                                                                     1,228           1,108              90%
National Institute of Allergy & Infectious Diseases                                                           1,060             917              87%
National Institute on Deafness & Other Communication Disorders                                                1,008             922              92%
National Center for Research Resources                                                                        1,005             557              55%
National Institute of Child Health & Human Development                                                          964             953              99%
National Heart, Lung, & Blood Institute                                                                         621             566              91%
National Institute of Dental & Craniofacial Research                                                            593             584              99%
National Institute of Diabetes & Digestive & Kidney Diseases                                                    541             540            100%
National Institute of General Medical Sciences                                                                  386             323              84%
National Institute of Nursing Research                                                                          169             156              92%
Fogarty International Center                                                                                    154             131              85%
National Institute of Mental Health                                                                             120             108              90%
National Institute of Arthritis & Musculoskeletal & Skin Diseases                                               113             112              99%
National Institute on Alcohol Abuse & Alcoholism                                                                 51               17             33%
National Library of Medicine                                                                                     28               15             54%
National Human Genome Research Institute                                                                         21                7             33%
National Institute on Aging                                                                                      12               12           100%
National Center for Complementary & Alternative Medicine                                                         12               12           100%
National Eye Institute                                                                                           10               10           100%
National Institute of Biomedical Imaging & Bioengineering                                                         6                0              0%
National Institute on Drug Abuse                                                                                  2                2           100%
National Institute of Environmental Health Sciences                                                               2                2           100%
  Overall Total                                                                                           10,122             8,941             88%
Source: OIG analysis of data from NIH's Closeout Module, 2003

*24 ICs have grant-making authority but the National Center for Minority Health and Health Disparities was established in 2000
  and has not yet closed out a grant.




      O E I - 01 - 03 - 0 0 0 2 1      N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S                                             26

�       A P P E N D I X                                         ~            D 


                              Agency Comments





O E I - 01 - 03 - 0 0 0 2 1      N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S   27

A    P      P      E       N      D   I      X     ~     D




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S   28

A    P      P      E       N      D   I      X     ~     D




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S   29

A    P      P      E       N      D   I      X     ~     D




    O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S   30

�       A C K N O W L E D G M E N T S 




                              This report was prepared under the direction of Mark R. Yessian, Ph.D.,
                              Regional Inspector General for Evaluation and Inspections in the Boston
                              Regional Office, and Joyce M. Greenleaf, MBA, Assistant Regional
                              Inspector General. Other principal Office of Evaluation and Inspections
                              staff who contributed include:
                              Aimee Golbitz, Project Leader

                              Danielle Fletcher, Program Analyst

                              Sara Schulman, Program Analyst

                              Genevieve Nowolinski, Program Specialist

                              Ayana Everett, Program Specialist

                              Elise Stein, Director, Public Health and Human Services

                              Technical Assistance

                              Barbara Tedesco, Mathematical Statistician




O E I - 01 - 03 - 0 0 0 2 1   N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S   31
�   E N D   N O T E S 





             1   U.S. Department of Health and Human Services, Performance and
                  Accountability Report Fiscal Year 2002, Appendix A.

             2   45 CFR § 74 and 92.

             3   NIH Grants Policy Statement, March 2001, p. 25.

             4   NIH is comprised of 27 institutes and centers, such as the National
                  Cancer Institute. Only 24 institutes have grant-making authority.

             5   45 CFR § 74.70-73.

             6   NIH Manual, 5805-Closeout of NIH Grants, Release Date 2/16/00.

             7   U.S. Department of Health and Human Services FY 2002
                  Performance and Accountability Report, Independent Auditor’s
                  Report and Management Response, p. 12.

             8   General Accounting Office, NIH Research: Improvements Needed in
                  Monitoring Extramural Grants (GAO/AIMD-00-139), May 2000.

             9   National Cancer Institute, Office of Management, Grants
                  Administration Branch Business Plan, February 2002.

             10   There are 24 institutes with grant-making authority. However, the
                  National Center on Minority Health and Health Disparities was
                  established in 2000 and has not yet closed out a grant.

             11   45 CFR § 74.70-73.

             12   NIH Manual, 5805-Closeout of NIH Grants, Release Date 2/16/00.

             13   NIH Manual, 5805-Closeout of NIH Grants, Release Date 2/16/00.

             14   45 CFR § 74.14.
E   E   N      D      N       O       T   E      S




                                              15   NIH Manual, 5805-Closeout of NIH Grants, Release Date 2/16/00. 


                                              16   45 CFR § 74.14.





        O E I - 01 - 03 - 0 0 0 2 1           N I H GR A N T S M A N A G E M E N T : L A T E CL O S E O U T S    33

